W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-15

Don Peterson, et al.

Russ Jones, et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Harris County, Texas

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

Digitally signed by Seth Hopkins
DN: cn=Seth Hopkins gn=Seth Hopkins c=US United States l=US United States o=Harris County Attorney's Office ou=Harris County e=seth.hopkins@cao.hctx.net
Reason: I am the author of this document
Location:
Date: 2021-07-19 11:12-05:00

Seth Hopkins

7/19/21

(Type or print) Name Seth Hopkins
Mr.

Ms.

Mrs.

Firm

Harris County Attorney's Office

Address

1019 Congress, 15th Floor

City & State

Houston, Texas

Phone

(713) 274-5141

Miss

Zip 77002
Email

Seth.Hopkins@cao.hctx.net

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Paul Nunu and Donald Cheatham, counsel for petitioners.
W. Russ Jones, counsel for co-respondent.

